2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le ga 1 Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 . Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-465

PETER BRET CHIAFALO, LEVI JENNET GUERRA,
AND ESTHER VIRGINIA JOHN,
Petitioners,
ve
STATE OF WASHINGTON,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE VINZ KOLLER IN SUPPORT OF PETITIONERS in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 3769 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
ceri » CEM Qudrwr-h, Bhle
State of Nebraska . ,
tbe * ‘

Notary Public Affiant 38897

My Commission Expires Nov 24, 2020

 
